     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
September 27, 2010                                                        Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

Report Number: A-02-08-01015

Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Jersey’s Medicaid Management Information
System Expenditures for the Period January 1, 2006, Through December 31, 2007. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222 or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-08-01015 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 –Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF


      INSPECTOR GENERAL






   REVIEW OF NEW JERSEY’S


    MEDICAID MANAGEMENT


     INFORMATION SYSTEM


 EXPENDITURES FOR THE PERIOD


  JANUARY 1, 2006, THROUGH


      DECEMBER 31, 2007






                      Daniel R. Levinson


                       Inspector General



                       September 2010


                        A-02-08-01015


                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                  EXECUTIVE SUMMARY



BACKGROUND

A Medicaid management information system (MMIS) is a system of software and hardware used
to process Medicaid claims and manage information about Medicaid beneficiaries and services.
Section 1903(a) of the Social Security Act authorizes Federal reimbursement for the operation of
an MMIS at an enhanced rate of 75 percent. The Centers for Medicare & Medicaid Services’
(CMS’s) State Medicaid Manual identifies the specific types of MMIS costs that are allowable
for Federal reimbursement. For such costs to be allowable at the enhanced rate of 75 percent,
they must be related to the operations of the MMIS for ongoing automated processing of claims,
payments, and reports. The standard Federal reimbursement rate for Medicaid general
administrative expenditures is 50 percent.

In New Jersey, the Department of Human Services, Division of Medical Assistance and Health
Services (the State agency), administers the Medicaid program with Federal oversight from
CMS. The State agency contracts with a fiscal agent, Unisys, to process claims through the
MMIS.

During the 2-year period January 1, 2006, through December 31, 2007, the State agency claimed
current quarter MMIS operating costs totaling $81,448,043 ($61,086,032 Federal share) at the
enhanced Federal reimbursement rate under the Medicaid program.

OBJECTIVE

Our objective was to determine whether current quarter MMIS costs claimed by the State agency
at the enhanced Federal reimbursement rate were allowable and claimed at the correct Federal
reimbursement rate.

SUMMARY OF FINDINGS

The State agency’s claims for MMIS costs were generally allowable. Of the $61,086,032
(Federal share) of MMIS costs that we reviewed, $60,210,194 was allowable. However, the
remaining $875,838 was unallowable. Specifically, the State agency claimed:

   •		 salary, postage, audit, and other general administrative costs at the enhanced
       reimbursement rate of 75 percent rather than the standard 50 percent rate, resulting in an
       overpayment of $823,938; and

   •		 unallowable MMIS costs totaling $51,900.

The State agency improperly claimed these costs for Federal reimbursement because it did not
have adequate controls and procedures to ensure that all of its MMIS costs were claimed at the
correct reimbursement rate and allowable.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

       •		 refund $875,838 to the Federal Government;

       •		 strengthen internal controls and procedures to ensure that its MMIS costs claimed for
           Federal reimbursement are allowable, and claimed at the correct Federal
           reimbursement rate; and

       •		 review MMIS costs claimed for Federal reimbursement after December 31, 2007, to
           ensure that all costs claimed were allowable and claimed at the correct Federal
           reimbursement rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially agreed with our first
recommendation (financial disallowance) and disagreed with our remaining recommendations.

The State agency agreed that $383,897 of the $875,838 recommended disallowance was
incorrectly claimed but stated that the remaining $491,941 was correctly claimed because the
salary and general administrative costs were directly related to the operations of the MMIS.
Further, the State agency agreed that costs related to Unisys staff were claimed at the incorrect
hourly rate; however, it believed that the work performed by the Unisys staff was an allowable
expense.

The State agency indicated that its internal controls and procedures are adequate to ensure that
MMIS costs claimed for Federal reimbursement are allowable and claimed at the correct Federal
reimbursement rate. Further, the State agency indicated that it is confident that MMIS costs
claimed after December 31, 2007, were allowable and claimed at the correct Federal
reimbursement rate. The State agency’s comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. Specifically, the salary and general administrative costs referenced
in the State agency’s response were not directly related to the operations of the MMIS.
Therefore, these costs were not eligible for the enhanced Federal reimbursement rate. In
addition, we agree that work performed by Unisys staff was an allowable expense; however, we
note that we questioned the difference between the hourly rate claimed by the State agency
($125) and the contracted rate ($103). Accordingly, we continue to recommend that the State
agency refund $875,838. Further, we maintain that the State agency should strengthen its
internal controls and procedures, and review MMIS costs claimed after December 31, 2007, to
ensure all costs claimed for Federal reimbursement are allowable, and claimed at the correct
Federal reimbursement rate.




                                                 ii
                                                   TABLE OF CONTENTS



                                                                                                                              Page

INTRODUCTION.............................................................................................................1



     BACKGROUND ..........................................................................................................1


        Medicaid Program................................................................................................1


        Medicaid Management Information System .......................................................1


        New Jersey Medicaid Management Information System ....................................1



     OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2


         Objective ..............................................................................................................2


         Scope....................................................................................................................2


         Methodology........................................................................................................2



FINDINGS AND RECOMMENDATIONS ...................................................................3



     COSTS CLAIMED AT THE INCORRECT REIMBURSEMENT RATE .................3


        Salary Costs .........................................................................................................4


        Postage Costs .......................................................................................................4


        Audit Costs...........................................................................................................4


        Other General Administrative Costs....................................................................4



     UNALLOWABLE COSTS ..........................................................................................5



     RECOMMENDATIONS..............................................................................................6



     STATE AGENCY COMMENTS.................................................................................6



     OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................6



APPENDIX: STATE AGENCY COMMENTS




                                                                      iii
                                       INTRODUCTION



BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

States report expenditures for administrative costs related to the Medicaid program to CMS on
the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” Form
CMS-64 (CMS-64). The standard Federal reimbursement rate for Medicaid general
administrative expenditures is 50 percent.

Medicaid Management Information System

Section 1903(r)(1) of the Act states that, to receive Federal funding for the use of automated data
systems in administration of the Medicaid program, the State must have a mechanized claims
processing and information retrieval system. Pursuant to chapter 11, section 11100 of CMS’s
State Medicaid Manual, for Medicaid purposes, the mechanized system is the Medicaid
Management Information System (MMIS). An MMIS is a system of software and hardware
used to process Medicaid claims and manage information about Medicaid beneficiaries and
services. The system may be operated by either a State agency or a fiscal agent, which is a
private contractor hired by the State.

Section 1903(a)(3) of the Act authorizes an enhanced 75-percent Federal reimbursement rate for
the operation of an MMIS. Section 11276.3(A) of CMS’s State Medicaid Manual states that for
costs to be allowable at the enhanced rate, they must be directly attributable to the Medicaid
program for ongoing automated processing of claims, payments, and reports.

New Jersey Medicaid Management Information System

In New Jersey, the Department of Human Services, Division of Medical Assistance and Health
Services (the State agency), administers the Medicaid program with Federal oversight from
CMS. The State agency contracts with a fiscal agent, Unisys, to process claims through the
MMIS.

During the 2-year period January 1, 2006, through December 31, 2007, the State agency claimed
current quarter MMIS operating costs totaling $81,448,043 ($61,086,032 Federal share) at the
enhanced Federal reimbursement rate.




                                                 1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether current quarter MMIS costs claimed by the State agency
at the enhanced Federal reimbursement rate were allowable and claimed at the correct Federal
reimbursement rate

Scope

We limited our review to current quarter MMIS costs claimed by the State agency at the
enhanced Federal reimbursement rate during calendar years 2006 and 2007. During this period,
the State agency claimed $81,448,043 ($61,086,032 Federal share) in Medicaid reimbursement
for MMIS operating costs.

We did not perform a detailed review of the State agency’s internal controls. Rather, we limited
our review to obtaining an understanding of the procedures used to calculate and claim MMIS
costs for Federal reimbursement.

We performed fieldwork at the State agency’s office in Trenton, New Jersey, from February
through September 2009.

Methodology

To accomplish our objective, we:

   •		 reviewed applicable Federal laws, regulations and CMS guidance;

   •		 met with CMS officials to obtain an understanding of MMIS costs that may be claimed
       for enhanced Federal reimbursement and the process for claiming these costs;

   •		 interviewed State agency officials to gain an understanding of the State agency’s policies,
       procedures, and controls related to calculating and claiming MMIS costs for Federal
       reimbursement;

   •		 interviewed Unisys officials to gain of an understanding of MMIS costs submitted to the
       State agency for reimbursement;

   •		 reviewed the State agency’s contract with Unisys;

   •		 compared MMIS costs claimed by the State agency on the CMS-64 to supporting


       schedules for the period January 1, 2006, through December 31, 2007;






                                                2


    •		 selected a judgmental sample of the State agency’s non-salary expenditures and fiscal
        agent expenditures claimed on the CMS-64; 1

    •		 reviewed documentation for sampled expenditures to determine whether costs were
        allowable and adequately supported; and

    •		 reviewed MMIS operations cost center assignments and associated salaries to determine
        whether the costs were related to the operation of the State’s MMIS.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency’s claims for MMIS costs were generally allowable. Of the $61,086,032
(Federal share) of MMIS costs that we reviewed, $60,210,194 was allowable. However, the
remaining $875,838 was unallowable. Specifically, the State agency claimed:

    •		 salary, postage, audit, and other general administrative costs at the enhanced
        reimbursement rate of 75 percent rather than the standard 50 percent rate, resulting in an
        overpayment of $823,938; and

    •		 unallowable MMIS costs totaling $51,900.

The State agency improperly claimed these costs for Federal reimbursement because it did not
have adequate controls and procedures to ensure that all of its MMIS costs were claimed at the
correct reimbursement rate and allowable.

COSTS CLAIMED AT THE INCORRECT REIMBURSEMENT RATE

Section 1903(a)(3) of the Act authorizes an enhanced 75-percent Federal reimbursement rate for
the operation of an MMIS. Section 11276 of CMS’s State Medicaid Manual identifies the
specific types of MMIS costs that are eligible for enhanced Federal reimbursement. For such
costs to be allowable at the enhanced rate of 75 percent, they must be related to the operations of
the MMIS for ongoing automated processing of claims, payments, and reports. The standard
Federal reimbursement rate for Medicaid administrative expenditures is 50 percent.

The State agency incorrectly claimed salary, postage, audit and other general administrative costs
totaling $3,295,753 at the enhanced reimbursement rate of 75 percent rather than the standard 50
percent rate, resulting in an overpayment of $823,938.

1
 These costs represented 93 percent of the State agency’s non-salary expenditures and 90 percent of Unisys’ MMIS
expenditures, respectively.


                                                        3

Salary Costs

Section 11276.3(A) of CMS’s State Medicaid Manual states that for MMIS costs to be allowable
at the enhanced 75-percent Federal reimbursement rate, they must be directly attributable to the
Medicaid program for ongoing automated processing of claims, payments, and reports. The
State agency incorrectly claimed salary costs totaling $2,354,323 at the enhanced 75-percent
Federal reimbursement rate for employees in cost centers whose functions were not directly
related to the operations of the MMIS rather than at the standard 50 percent rate. This resulted in
an overpayment of $588,581.

Postage Costs

Section 11276.8 of CMS’s State Medicaid Manual states: “… all postage costs associated with
the operation of an MMIS are matched at the 50 percent FFP rate.” The State agency incorrectly
claimed $270,565 in postage costs at the enhanced 75-percent Federal reimbursement rate rather
than at the standard 50 percent rate, resulting in an overpayment of $67,641.

Audit Costs

Section 11276.7(C) of CMS’s State Medicaid Manual states that all State and fiscal agent audit
activity costs are not eligible for enhanced Federal reimbursement as an MMIS activity. Section
11276.11(B)(3) of the manual states that these costs will be reimbursed at the 50-percent Federal
reimbursement rate. The State agency incorrectly claimed $203,768 for costs associated with the
annual audit of Unisys’ controls related to MMIS data at the enhanced 75-percent Federal
reimbursement rate rather than at the standard 50 percent rate. This resulted in an overpayment
of $50,942.

Other General Administrative Costs

Section 11276.3(A) of CMS’s State Medicaid Manual states that for MMIS costs to be allowable
at the enhanced 75-percent Federal reimbursement rate, they must be directly attributable to the
Medicaid program for ongoing automated processing of claims, payments, and reports. The
State agency incorrectly claimed general administrative costs totaling $467,097 at the enhanced
Federal reimbursement rate of 75-percent rather than at the standard 50 percent rate, resulting in
an overpayment of $116,774. Specifically, the State agency incorrectly claimed the enhanced
75-percent Federal reimbursement rate for:

     •		 a modification to the electronic application used to determine program eligibility for the
         State’s health insurance programs for uninsured children and certain low-income
         parents, resulting in an overpayment of $114,216;

     •		 costs related to Medicaid eligibility determinations made on the State agency’s behalf
         by the Social Security Administration for supplemental security income applicants,
         resulting in an overpayment of $2,001;




                                                 4

    •		 training and travel costs for employees not directly involved in the operation of the
        MMIS, resulting in an overpayment of $363; and

    •		 office supplies and other expenses not directly related to MMIS operations, resulting in
        an overpayment of $194.

UNALLOWABLE COSTS

Pursuant to OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments, Att. A, § C.1.a (2 CFR pt. 225, App. A, § C.1.a), to be allowable under a Federal
award, a cost must be necessary and reasonable for the proper and efficient performance and
administration of a Federal award. In addition, pursuant to section 2500 of CMS’s State
Medicaid Manual, amounts reported on the CMS-64 and its attachments must be actual
expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and is available immediately at the time the claim is filed.

Contrary to Federal requirements, the State agency claimed unallowable MMIS costs totaling
$69,200 at the enhanced Federal reimbursement rate, resulting in an overpayment of $51,900.
Specifically:

   •		 The State agency claimed $44,627 at the enhanced Federal reimbursement rate for costs
       related to Unisys staff at an hourly rate of $125. However, according to Unisys’ contract
       with the State agency, the hourly rate for these employees was $103, resulting in an
       overpayment of $33,470.

   •		 The State agency claimed $17,752 at the enhanced Federal reimbursement rate for costs
       related to the operation of a data warehouse that it shared with another division within the
       Department of Human Services. Although the other division reimbursed the State agency
       for its share of the data warehouse costs, the State agency did not always reduce its claim
       for Federal reimbursement to reflect these payments, which resulted in an overpayment
       of $13,314.

   •		 The State agency claimed $3,060 at the enhanced Federal reimbursement rate for costs
       related to Unisys employees which were not supported by time sheets and other source
       documentation, resulting in an overpayment of $2,295.

   •		 The State agency claimed $2,141 at the enhanced Federal reimbursement rate for Unisys
       postage costs that were not related to MMIS activities, resulting in an overpayment of
       $1,606.

   •		 The State agency claimed $1,620 at the enhanced Federal reimbursement rate for charges
       that were greater than what was indicated on Unisys’ invoices and supporting
       documentation, resulting in an overpayment of $1,215.




                                                5


RECOMMENDATIONS

We recommend that the State agency:

       •		 refund $875,838 to the Federal Government;

       •		 strengthen internal controls and procedures to ensure that its MMIS costs claimed for
           Federal reimbursement are allowable and claimed at the correct Federal
           reimbursement rate; and

       •		 review MMIS costs claimed for Federal reimbursement after December 31, 2007, to
           ensure that all costs claimed were allowable and claimed at the correct Federal
           reimbursement rate.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency partially agreed with our first
recommendation (financial disallowance) and disagreed with our remaining recommendations.

The State agency agreed that $383,897 of the $875,838 recommended disallowance was
incorrectly claimed but stated that the remaining $491,941 was correctly claimed. Specifically,
the State agency indicated that salaries totaling $464,208 assigned to cost centers within its
Office of Research and its Financial Transactions Unit were eligible for the enhanced Federal
reimbursement rate of 75 percent because employees in these costs centers work with the MMIS.
The State agency also indicated that training, travel, and supply costs totaling $376 were directly
related to the Office of Research or Financial Transactions Unit and were therefore eligible for
the enhanced Federal reimbursement rate. Finally, the State agency agreed that costs related to
Unisys staff were claimed at an incorrect hourly rate; however, it believed that the work
performed by the Unisys staff was an allowable expense. Therefore, the State agency stated that
$27,357 of these costs was correctly claimed.

The State agency indicated that its internal controls and procedures are adequate to ensure that
MMIS costs claimed for Federal reimbursement are allowable and claimed at the correct Federal
reimbursement rate. Further, the State agency stated that it is confident that its MMIS costs
claimed after December 31, 2007, were allowable and claimed at the correct Federal
reimbursement rate. The State agency’s comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. Specifically, the salary and general administrative costs referenced
in the State agency’s comments were not directly related to the operations of the MMIS.
Therefore, these costs were not eligible for the enhanced Federal reimbursement rate. In
addition, we agree that work performed by Unisys staff was an allowable expense; however, we
note that we questioned the difference between the hourly rate claimed by the State agency
($125) and the contracted rate ($103). Accordingly, we continue to recommend that the State


                                                 6


agency refund $875,838. Further, we maintain that the State agency should strengthen its
internal controls and procedures, and review MMIS costs claimed after December 31, 2007, to
ensure all costs claimed for Federal reimbursement are allowable, and claimed at the correct
Federal reimbursement rate.




                                              7


APPENDIX


                                                                                                                     Page 1 of 7


                           APPENDIX: STATE AGENCY COMMENTS




                                                 ~tate      of ~em :!JerselJ
CHRIS C HRISTIE                                 DEPARTMENT OF HUMAN SERVICES
   Governor                        DIVIS ION OF MEDICAL ASSI STANCE AND HEALTH SERVICES
                                                            PO Box 7 12
KIM G UADAGNO                                                                                                    JENNIFER V ELEZ
  Lt. Governor                                       TRENTON,  NJ 08625-0712                                      Commissioner

                                                                                                                 JOHN R . GUHL
                                                                                                                    Director
                                                      September 13, 2010


          James P. Edert
          Regional Inspector General for Audit Services
          Department of Health and Human Services
          Office of Inspector General
          Office of Audit Services Region II
          Jacob K. Javits Federal Building
          26 Federal Plaza - Room 3900
          New York, NY 10278

          Report Number: A·02·08·01015

          Dear Mr. Edert:

          This is in response to your letter dated June 29, 2010 concerning the Department of
          Health and Human Services, Office of the Inspector General's (OIG) draft report entitled
          "Review of New Jersey's Medicaid Management Information System Expenditures for
          the Period January 1, 2006 through December 31, 2007". Your letter provides the
          opportunity to comment on this draft report.

          The Social Security Act authorizes Federal reimbursement for the operation of an MMIS
          system at an enhanced rate of 75 percent. The objective of this review was to determine
          whether current quarter MMIS costs for the audit period claimed by the Division of
          Medical Assistance and Health Services (DMAHS) at the enhanced Federal
          reimbursement rate were allowable and claimed at the correct Federal reimbursement
          rate.

          The draft audit report concluded that New Jersey's claims for MMIS costs were
          generally allowable. Of the $61,086,032 (Federal share) of MMIS costs that were
          reviewed , $60,210 ,194 or 98.6% were allowable. The draft report stated that $875,838
          was unallowable as follows:

                 •   Salary, postage, audit, and other general administrative costs were claimed at
                     the enhanced reimbursement rate of 75% rather than the standard 50% rate,
                     resulting in an overpayment of $823 ,938; and
                 •   Unallowable MMIS costs totaling $51 ,900 .




                        New Jersey Is An Equal Opportunity Employer _ Printed on Recycled Paper and Recyclable
                                                                                          Page 2 of 7






Mr. James P. Edert                                                                    2
September 13, 2010
Page 2


The draft report states that DMAHS improperly claimed these costs for Federal
reimbursement because it did not have adequate controls and procedures to ensure
that all of its MMIS costs were claimed at the correct reimbursement rate and allowable.
The report also stated that DMAHS should review MMIS claims for Federal
reimbursement after December 31 , 2007 to ensure that all costs claimed were allowable
and claimed at the correct Federal reimbursement rate.

We appreciate the opportunity to provide this response to the draft OIG audit report.
Following are the auditors' recommendations and the Division of Medical Assistance
and Health Services responses:

Recommendation 1:

The OIG recommends that New Jersey refund $875,838 to the Federal
Government.

The State concurs with some but not all of the recommendations in the draft report. The
State agrees that $383,897 of the recommended refund of $875,838 was incorrectly
claimed but that $491 ,941 was correctly claimed . Our response to each of the auditor's
recommendations is as follows:

Costs Claimed at the Incorrect Reimbursement Rates

Salary Costs

Finding:

Section 11276.3(A) of eMS's State Medicaid Manual states that for MMIS costs to be
allowable at the enhanced 75-percent Federal reimbursement rate, they must be
directly attributable to the Medicaid program for ongoing automated processing of
claims, payments, and reports. The State agency incorrectly claimed salary costs
totaling $2 ,354,323 at the enhanced 75-percent Federal reimbursement rate for
employees in cost centers whose functions were not directly related to the operations of
the MMIS rather than at the standard 50 percent rate. This resulted in an overpayment
of $588,581.

Response:

The DMAHS agrees that several cost centers were incorrectly assigned to MMIS
Operations at a 75% federal reimbursement rate . The amount of salary funding that the
Division agrees was incorrectly assigned totals $497,493 resulting in an overpayment of
$124,373.
                                                                                        Page 3 of 7





Mr. James P. Edert                                                                     3
September 13, 2010
Page 3


The remaining salaries in question are assigned to the Office of Research as well as
one cost center for Financial Transactions Unit within the Financial Reporting Unit. The
DMAHS disagrees that these salaries are ineligible for the 75% federal reimbursement
rate. The Office of Research works wilhlthrough MMIS in the production of several
federal reporting requirements including SEDS (SCHI P Statistical Enrollment Data
System), 1115 Waiver Reporting, HIFA Waiver reporting and the 1915(b) Member
Months Report. In addition, during the audit period of January " 2006 through
December 31,2007, the federally required SURS (Surveillance and Utilization Review
Subsystem) staff, which are eligible for 75% federal reimbursement worked within the
Office of Research. The cost center that is part of the Financial Transactions Unit
controls and processes all MMIS financial transactions for the Division. In addition, any
retumed MMIS/provider checks are processed through Financial Activity Forms to
reflect activity on NJMMIS.

As a resu" of the functions performed by staff whose salaries are in question, the
DMAHS believes that the remaining salary amounts identified by this audit as not
eligible for 75% federal reimbursement are in fact eligible for the higher reimbursement
rate. As such, of the $2,354,323 ($588,581 overpayment) in question, the DMAHS
believes that $1 ,856,830 ($464,208 overpayment per the audit) is an allowable expense
to be claimed at 75%, federal reimbursement.

Postage Costs and Audit Costs

Finding :

Section 11276.8 of CMS's State Medicaid Manual states: ~... all postage costs
associated with the operation of an MMIS are matched at the 50 percent FFP rate.- The
State agency incorrectly claimed $270,565 in postage costs at the enhanced 75-percent
Federal reimbursement rate rather than at the standard 50 percent rate, resulting in an
overpayment of $67,641.

Section 11 276.7(C) of CMS's State Medicaid Manual states that all State and fiscal
agenl audit activity costs are not eligible for enhanced Federal reimbursement as an
MMIS activity. Section 11 276.11(8) (3) of the manual states that these costs will be
reimbursed at the 50-percent Federal reimbursement rate. The Stale agency incorrectly
claimed $203,768 for costs associated with the annual audit of Unisys' controls related
to MMIS data at the enhanced 75-percent Federal reimbursement rate rather than at the
standard 50 percent rate. This resulted in an overpayment of $50,942.

Response :

The DMAHS agrees thai the postage and audit costs should have been reimbursed at
the 50% Federal reimbursement rate. As such, the tolal amount claimed for postage
and audit costs of $474,233 resulted in an overpayment of $118.583.
                                                                                          Page 4 of 7






Mr. James P. Edert                                                                       4
September 13, 2010
Page 4



Other General Administrative Costs

Finding:

Section 11276.3(A) of eMS's State Medicaid Manual states that for MMIS costs to be
allowable at the enhanced 75-percent Federal reimbursement rate, they must be
directly attributable to the Medicaid program for ongoing automated processing of
claims, payments, and reports. The State agency incorrectly claimed general
administrative costs totaling $467,097 at the enhanced Federal reimbursement rate of
75-percent rather than at the standard 50 percent rate, resulting in an overpayment of
$116,774. Specifically, the State agency incorrectly claimed the enhanced 75-percent
Federal reimbursement rate for:

   •    a modification to the electronic application used to detenmine program eligibility
       for the State's health insurance programs for uninsured children and certain low­
       income parents, resulting in an overpayment of $114,216;

   •   costs related to Medicaid eligibility determinations made on the State agency's
       behalf by the Social Security Administration for supplemental security income
       applicants, resulting in an overpayment of $2 ,001 ;

Response:

The DMAHS agrees that the costs associated with a modification to the electronic
application as well as Medicaid eligibility determinations made on the State agency's
behalf by the Social Security Administration should have been reimbursed at the 50%
Federal reimbursement rate. As such, the total amount claimed for these eligibility costs
resulted in an overpayment of$116,217.

Finding:

   •   training and travel costs for employees not directly involved in the operation of
       the MMIS, resulting in an overpayment of $363; and

Response:

DMAHS agrees that $138 of the $1,452 training and travel costs should have been
reimbursed at the 50% Federal reimbursement rate resulting in an overpayment of $34.
DMAHS believes that $1,314 ($329 overpayment per the audit) of the $1 ,452 training
and travel costs is an allowable expense to be claimed at 75% federal reimbursement
as they are directly related to either the Office of Research or the Financial Transactions
Unit.
                                                                                       Page 5 of 7





Mr. James P. Edert                                                                    5
September 13, 2010
Page 5


Finding:

    •   office supplies and other expenses not directly related to MMIS operations ,
        resulting in an overpayment of $194.

Response:

DMAHS agrees that $587 of the $778 office supply costs should have been reimbursed
at the 50% Federal reimbursement rate resulting in an overpayment of $147. DMAHS
believes that $191 ($48 overpayment per the audit) of the $778 office supply costs is an
allowable expense to be claimed at 75% federal reimbursement as they are directly
related to either the Office of Research or the Financial Transactions Unit.

Unallowable Costs

Pursuant to OMS Circular A-87, Cost Principles for State, Local , and Indian Tribal
Govemments, Att. A, § C.l.a (2 CFR pt. 225, App. A, § C.l .a), to be allowable under a
Federal award, a cost must be necessary and reasonable for the proper and efficient
performance and administration of a Federal award. In addition, pursuant to section
2500 of CMS's State Medicaid Manual, amounts reported on the CMS-64 and its
attachments must be actual expenditures for which all supporting documentation, in
readily reviewable form , has been compiled and is available immediately at the time the
claim is filed .

Contrary to Federal requirements, the State agency claimed unallowable MMIS costs
totaling $69,200 at the enhanced Federal reimbursement rate , resulting in an
overpayment of $51 ,900 .

Specifically:

Finding:

• The State agency claimed $44,627 at the enhanced Federal reimbursement rate for
costs related to Unisys staff at an hourly rate of $125. However, according to Unisys'
contract with the State agency, the hourly rate for these employees was $103, resulting
in an overpayment of $33,470.

Response:

DMAHS agrees that the hourly rate claimed was incorrect and should have been
claimed at the $103 hourly rate. However, DMAHS believes that the worked performed
by the Unisys staff is an allowable expense and is claimable at the $103 hourly rate or
$36,476. Consequently, the overpayment is $6 ,113 and not $33,470.
                                                                                         Page 6 of 7






Mr. James P. Edert                                                                   6
September 13, 2010
Page 6


Finding:

• The State agency claimed $17,752 at the enhanced Federal reimbursement rate for
costs related to the operation of a data warehouse that it shared with another division
within the Department of Human Services. Although the other division reimbursed the
State agency for its share of the data warehouse costs, the State agency did not always
reduce its claim for Federal reimbursement to reflect these payments, which resulted in
an overpaym ent of $1 3,314.

• The State agency claimed $3,060 at the enhanced Federal reimbursement rate for
costs related to Unisys employees that were not supported by time sheets and other
source documentation, resulting in an overpayment of $2,295.

• The State agency claimed $2,141 at the enhanced Federal reimbursement rate for
Unisys postage costs that were not related to MMIS activities, resulting in an
overpayment of $1 ,606.

• The State agency claimed $1,620 at the enhanced Federal reimbursement rate for
charges that were greater than what was indicated on Unisys' invoices and supporting
documentation, resulting in an overpayment of $1 ,215.

Response:

DMAHS agrees that these costs were improperly claimed or were not properly
supported with the proper documentation resulting in an overpayment of $18,430.

Recommendation 2:

DMAHS should strengthen intemal controls and procedures to ensure that its MMIS
costs claimed for Federal reimbursement are allowable, and claimed at the correct
Federal reimbursement rate.

Response:

DMAHS is continually reviewing the adequacy of its intemal controls and procedures
and believes that they are adequate to ensure that its MMIS costs are claimed for
Federal reimbursement at the correct Federal reimbursement rate and are allowable .
Assuming the OIG auditor agrees with our adjustments to the auditor's findings, of the
$61 ,086,032 (Federal share) of MMIS costs that were reviewed , $60,702,135 or 99.4%
were allowable and claimed at the proper Federal reimbursement rate.
                                                                                      Page 7 of 7





Mr. James P. Edert                                                                   7
September 13. 2010
Page 7


Recommendation 3:

DMAHS should review MMIS costs claimed for Federal reimbursement after December
31 , 2007 to ensure that all costs claimed were allowable and claimed at the correct
Federal reimbursement rate.

Response:

It is the policy of DMAHS to review all costs including MMIS costs that are claimed for
Federal reimbursement to ensure that they are allowable and claimed at the proper
Federal reimbursement rate. DMAHS is confident that MMIS costs claimed after
December 31, 2007 are allowable and claimed at the correct Federal reimbursement
rate.

The professionalism and courtesy of the auditors throughout this audit is noteworthy
and greatly appreciated. The opportunity to review and comment on this draft audit
report is also greatly appreciated.
If you have any questions or require additional infonnation, please contact me at 609-
588·2600 or Richard Hurd at 609·588·2550.

                                        Sincerely,



                                       ~~
                                        Director

JRG:H
c:    Jennifer Velez
      Richard Hurd
